                          Department of the Interior
                         Office of Inspector General




          AUDIT REPORT



           U.S. Fish and Wildlife Service
            Federal Assistance Grants
         Awarded to the State of Maryland,
         Department of Natural Resources,
      From July 1, 2003, Through June 30, 2005




Report No. R-GR-FWS-0025-2005       February 2007
                United States Department of the Interior
                          OFFICE OF INSPECTOR GENERAL
                              12030 Sunrise Valley Drive, Suite 230
                                     Reston, Virginia 20191

                                                                                  February 8, 2007

                                    AUDIT REPORT
Memorandum

To:        Director
           U.S. Fish and Wildlife Service

From:      Christina M. Bruner
           Director of External Audits

Subject:   Audit Report on the U.S. Fish and Wildlife Service, Federal Assistance Division,
           Grants Awarded to the State of Maryland, Department of Natural Resources, From
           July 1, 2003, Through June 30, 2005 (No. R-GR-FWS-0025-2005)

        This report presents the results of our audit of costs incurred by the State of Maryland
(State), Department of Natural Resources (Department). The Department incurred the costs
under Federal Assistance grants awarded by the U.S. Fish and Wildlife Service (FWS). The
audit included total reported outlays of approximately $20.1 million on FWS grants that were
open during state fiscal years (SFYs) ended June 30 of 2004 and 2005 (see Appendix 1). The
audit also covered Department compliance with applicable laws, regulations, and FWS
guidelines, including those related to the collection and use of hunting and fishing license
revenues and the reporting of program income.

        While the Department complied, in general, with applicable grant accounting and
regulatory requirements, we questioned $37,818 in costs (federal share), including $13,695 that
were unallowable and $24,123 that were unsupported. We also identified issues regarding the
reporting of program income, control of personal and real property, and use of state fishing and
hunting license revenues.

       Please provide us with your written response to the findings and recommendations
included in this report by May 9, 2007. Your response should include information on actions
taken or planned, targeted completion dates, and titles of officials responsible for
implementation.

      If you have any questions about this report, please contact Mr. Jeffrey Wilson, Audit
Team Leader at 703-487-5359, or me at 703-487-5345.

cc:   Regional Director, Region 5, U.S. Fish and Wildlife Service
                                                Introduction

Background

The Pittman-Robertson Wildlife Restoration Act and the Dingell-Johnson Sport Fish Restoration
Act (Acts) 1 authorize FWS to provide Federal Assistance grants to states to enhance their sport
fish and wildlife restoration programs. The Acts allow FWS to reimburse the states up to 75
percent of the eligible costs incurred under the grants. They also specify that state hunting and
fishing license revenues cannot be used for any purpose other than the administration of the
state’s fish and game agency.

Objectives

Our audit objectives were to determine whether the Department:

       •   claimed the costs incurred under Federal Assistance grants in accordance with the Acts
           and related regulations, FWS guidelines, and the grant agreements;

       •   used state hunting and fishing license revenues solely for fish and wildlife program
           activities; and

       •   reported and used program income in accordance with federal regulations.

Scope

Audit work included reported outlays totaling approximately $20.1 million on 40 FWS grants
that were open during SFYs 2004 and 2005 (see Appendix 1). We performed our audit at
Department headquarters in Annapolis, Maryland, and visited one regional office, five wildlife
management areas, one fish hatchery, one inland and one marine fisheries work center, and two
boat ramps (see Appendix 2). We performed this audit to supplement, not replace, the audits
required by the Single Audit Act of 1984, as amended, and by Office of Management and
Budget Circular A-133.

Methodology

We performed our audit in accordance with the “Government Auditing Standards” issued by the
Comptroller General of the United States. Accordingly, we tested records and conducted other
auditing procedures as we considered necessary under the circumstances. Our tests and
procedures included:


1
    As amended 16 U.S.C. §§ 669 and 777, respectively.




                                                         2
   • examining the evidence that supports selected expenditures charged to the grants by the
     Department;

   • interviewing Department employees to ensure that personnel costs charged to the grants
     were supportable;

   • reviewing transactions and supporting documentation related to purchases, other direct
     costs, drawdowns of reimbursements, in-kind contributions, and program income;

   • conducting site visits to review equipment and other property; and

   • determining whether the Department used hunting and fishing license revenues solely for
     sport fish and wildlife program purposes.

To the extent possible, we relied on the work of the Office of Legislative Audits, Department of
Legislative Services, Maryland General Assembly, to avoid duplication of audit effort.

We also identified internal controls over transactions recorded in the labor and license fee
accounting systems and tested their operation and reliability. Based on the results of initial
assessments, we assigned a level of risk to these systems and selected a judgmental sample of
transactions for testing. We did not project the results of tests to the total population of recorded
transactions nor did we evaluate the economy, efficiency, or effectiveness of Department’s
operations.

Prior Audit Coverage

On January 24, 2003, we issued Report No. 2003-E-0015, “Advisory Report on Costs Claimed
by the State of Maryland, Department of Natural Resources, Under Federal Assistance Grants
from the U.S. Fish and Wildlife Service from July 1, 1998, through June 30, 2000.” We
followed up on all significant findings in the reports and determined that they had been resolved
and implemented prior to our review.

We also reviewed the State’s Comprehensive Annual Financial Report and single audit for 2004.
These reports did not contain any findings that would directly affect the Department’s Federal
Assistance grants, nor was the grant program selected for testing in the single audit.




                                                  3
                                        Audit Results

Audit Summary
We found that the Department complied, in general, with selected grant agreement provisions
and requirements of the Acts, regulations, and FWS guidance. However, we identified several
conditions that resulted in the findings listed below, including $37,818 in questioned costs. We
discuss these findings in more detail in the Findings and Recommendations section.

     Questioned and Unsupported Costs. Indirect cost rates used by the Department did not
     limit the cost of state-provided central services to 3 percent of the State’s annual Federal
     Assistance apportionment, as required under the Acts and regulations. In addition, the
     Department claimed costs that were unallowable and unsupported.

     Unreported Program Income. The Department did not report $73,143 of program income
     associated with two grants.

     Inadequate Controls Over Equipment. The Department’s Asset Management System
     inventory listing was incomplete and the Department had missing and untagged items.

     Inadequate Controls Over Real Property. The Department does not maintain an
     inventory listing of real property (land) acquired with Federal Assistance funds or license
     revenues.

     Interest on License Revenue Not Properly Deposited. Interest generated from license
     fees deposited with the State Treasurer has not been transferred to the State Fisheries and
     Wildlife Management and Protection Funds, as required.

Findings and Recommendations
A.     Questioned and Unsupported Costs

       1.      Incorrect Indirect Cost Rate Charged — $7,695

               States allocate administrative costs for state-provided central services as an
               indirect cost across multiple grants and programs. The Acts limit indirect costs
               that states can allocate for state central services to Federal Assistance grants. The
               State complied with the limitation for most, but not all, of its Federal Assistance
               grants. As a result, we questioned $10,259 ($7,695 federal share) in costs.

               The Acts’ limitation on indirect costs has been codified in the Code of Federal
               Regulations (50 C.F.R. § 80.15(d)). The regulation requires administrative costs
               in the form of overhead or indirect costs for state central services outside of the
               state fish and wildlife agency to follow an approved cost allocation plan and not




                                                 4
to exceed 3 percent of the annual apportionment to that state in any one fiscal
year. In addition, 2 C.F.R. § 225, Appendix E, Section C.4(b), requires the state
to request a special or restricted rate when federal statutes restrict reimbursement
of certain indirect costs. States must establish procedures and document steps to
ensure compliance with the 3 percent limitation.

For SFYs 2004 and 2005, the Department applied a different indirect cost rate to
Hunter Education Grants W-65-S-15 and W-65-S-16 than it applied to its other
Federal Assistance grants. The Department had procedures to ensure compliance
with the 3 percent limitation for indirect cost rates for its Federal Assistance
grants, but it did not apply those procedures to the Hunter Education Grants. It
instead applied to those grants an indirect cost rate that was approved for the
Natural Resources Police that did not account for the 3 percent limitation.

The Department charged costs for state central services above the 3 percent
limitation when it applied an incorrect indirect rate to the Hunter Education
Grants. We calculated and applied a new indirect cost rate for the Hunter
Education Grants that excludes the excess central services costs. The difference
between our calculated amounts and those billed to the grants total $10,259
($7,695 federal share), which we have classified as questioned costs ($4,818 on
W-65-S-15 and $5,441 on W-65-S-16). Without proper application and
monitoring of indirect cost rates for all Federal Assistance grants, the
Department’s reimbursement for central services costs could continue to exceed
the 3 percent limitation.

Recommendations

We recommend that FWS:

1. resolve the $7,695 of questioned indirect costs claimed on Hunter Education
   Grants W-65-S-15 and W-65-S-16, and

2. require the Department to develop policies and procedures to ensure that the
   indirect cost rates applied to all Federal Assistance grants limit reimbursement
   for state-provided central services to 3 percent of the statewide annual
   apportionment.

Department Response

The Department concurred with the audit recommendation and stated that the
source of the billing problem in the Hunter Education grants was identified and
corrected. The Department also indicated in its response that there is no need for
a monetary adjustment or reimbursement because the Department accumulated an
overmatch of volunteer hours.




                                  5
     FWS Response

     FWS officials agreed with the recommendations and stated that they would work
     with the Department in developing a corrective action plan to resolve the
     recommendations.

     OIG Comments

     While FWS management concurs with the recommendations and the Department
     indicated action is being taken to address the recommendations, additional
     information is needed in the corrective action plan, including:

        • targeted completion dates,

        • titles of officials responsible for implementing the actions taken or planned
          to resolve and implement the recommendations, and

        • verification that FWS officials reviewed and approved of actions taken or
          planned by the State.

2.   Incorrect Other Direct Costs — $6,000

     The Department incorrectly charged grant F-42-R-17 for postage not related to
     the grant. We classified the $8,000 ($6,000 federal share) in postage as
     questioned costs.

     According to 50 C.F.R. § 80.15, for costs to be allowable, they must be necessary
     and reasonable for accomplishing approved project purposes and must comply
     with the cost principles of OMB Circular A-87 (recently codified as 2 C.F.R. §
     225). The regulation also requires costs to be supported and substantiated by
     source documents or other records. In addition, 2 C.F.R. § 225, Appendix A,
     Section C.3, specifies that a cost is allocable only if it provides a benefit to the
     grant. Appendix A, Sections E.1 and E.2.b, define direct costs as those that can
     be identified specifically with a particular final cost objective.

     Postage was incorrectly charged to grant F-42-R-17 because the Department made
     an accounting error, transposing account numbers for the FWS grant and a non-
     FWS grant. As a result, the Department was reimbursed for $6,000 of direct costs
     (postage) that were not applicable to the grant.

     Recommendation

     We recommend that FWS resolve the questioned costs of $6,000 for postage.




                                       6
     Department Response

     Department officials concurred with the audit recommendation and stated they
     addressed the $6,000 in questioned costs by crediting this amount back to the
     fisheries grant program.

     FWS Response

     FWS officials concurred with the recommendation and confirmed that the
     Department credited the $6,000 in questioned costs to the fisheries grant program.
     FWS stated that the transaction posted to the Federal Aid Information
     Management System on October 31, 2006, and they therefore consider this
     recommendation resolved and implemented.

     OIG Comments

     Based on the FWS response, we consider the recommendation resolved and
     implemented.

3.   Unsupported Costs — $24,123

     The Department charged $32,164 ($24,123 federal share) of inadequately
     supported costs to Hunter Education Grants W-65-S-15 and W-65-S-16 for
     enhancing private gun club facilities.

     Title 43 C.F.R. § 12.60 (b)(2) requires grantees and sub-grantees to maintain
     records which adequately identify the source and application of funds for
     financially-assisted activities, including obligations, outlays, and expenditures.
     Furthermore, the accounting records must be supported by source documentation
     such as cancelled checks and paid bills (43 C.F.R. § 12.60 (b)(6)).

     The Department issued sub-grants under grants W-65-S-15 and W-65-S-16 to
     selected gun clubs to upgrade their facilities. In exchange, the gun clubs agreed to
     host hunter education events sponsored by the Department and to open them to
     the public. The Department required sub-grantees to submit only an invoice to
     the Department for the costs incurred by the sub-grantee. The invoice did not
     contain sufficient details of costs incurred, nor did the Department require
     submission of documentation to support those costs. As a result, the Department
     paid $32,164 ($24,123 federal share) in costs to sub-grantees for which there was
     inadequate supporting documentation. We are questioning these costs.

     Recommendations

     We recommend that FWS:




                                      7
            1. resolve the $24,123 in costs paid to sub-grantees for which there was
               inadequate supporting documentation and

            2. ensure that the Department require all sub-grantees to maintain and submit
               source documentation adequate to support costs claimed for reimbursement on
               Federal Assistance grants.

            Department Response

            Department officials stated that the Hunter Education Coordinator and Program
            Supervisor personally observed improvements made to all but one gun club range,
            and the officials are therefore confident that the grant monies were spent for
            intended purposes. They noted, however, that any grant monies spent by
            subgrantees for which adequate documentation cannot be obtained will be
            returned. Department officials indicated that Department of Natural Resources
            auditors will contact the sub-grantees to collect missing documentation. Officials
            also stated one sub-grantee already returned $6,000, but emphasized that this is
            not an indication of wrong-doing on the part of the sub-grantee. Finally, officials
            stated that they will not issue these types of grants in FY2007.

            FWS Response

            FWS officials agreed with the audit recommendations and stated they would work
            with the Department in developing a corrective action plan to address the
            recommendations.

            OIG Comments

           While FWS management concurs with the recommendations and the Department
           indicated action is being taken to address them, additional information is needed in
           the corrective action plan, including:

               • targeted completion dates,

               • titles of officials responsible for the actions taken or planned to resolve and
                 implement the recommendations, and

               • verification that FWS officials reviewed and approved of actions taken or
                 planned by the State.

B.   Unreported Program Income

     Grants W-62-D-15 and W-62-S-16 provided funds to support the Department's land
     management activities, including operations, maintenance, and habitat management.
     During SFYs 2004 and 2005, the Department earned $83,143 in cash and estimated
     barter services. The Department only reported $5,000 in revenues as program income,



                                              8
 leaving $73,143 of program income associated with the two grants unreported ($18,702
 on grant W-62-D-15 and $54,441 on grant W-62-D-16).

 Title 43 C.F.R. § 12.65 defines program income as gross income received by the grantee
 directly generated by a grant supported activity, or earned only as a result of the grant
 agreement during the grant period. Program income ordinarily will be deducted from
 total allowable costs to determine the net allowable costs (deductive method). The
 awarding federal agency may authorize the grantee to add program income to the project
 funds to further implement eligible program projects or use it to meet the cost sharing or
 matching requirement. Since the awarding agency (FWS) did not approve the use of the
 additive method, the prevailing method for the Department is the deductive method.

 The Department did not determine actual program income earned or received during the
 period of our review. Because all program income was not reported on the Financial
 Status Reports, FWS did not have the opportunity to (1) authorize in advance whether the
 program income should be used to reduce FWS and Department contributions or to
 enhance the grants’ program objectives or (2) determine whether this income was used
 properly. Since the land management grants did not authorize program income to be
 added to the grant amount, net allowable costs eligible for cost sharing was overstated by
 $73,143.

 Recommendations

 We recommend that FWS:

 1. resolve the $73,143 in unreported program income for SFYs 2004 and 2005 and

 2. ensure the Department identify and report income earned from grant supported
    activities as program income in accordance with the grant agreement and regulations.

Department Response

Department officials disagreed with our recommendations. They stated the grant
documents listed those activities conducted on wildlife management areas that were
funded with Federal Assistance funds, and that these activities did not include managing
agricultural leases. They also believe that:

    • the only portion of the lease revenue that should be treated as program income is
      that from lands purchased with Federal Assistance funds;

    • barter income should not be reported because doing so would fail to account for the
      corresponding expense incurred by the tenant; and

    • if the Department reports the value of land leased as income it should also report
      the cost of planting as an expense, since it represents a cost savings to the
      Department.



                                          9
     FWS Response

     FWS officials agreed with the recommendations and stated they would work with the
     Department to develop a corrective action plan to address the recommendations.

     OIG Comments

     In response to the Department, we note that FWS Director’s Order 168 defines program
     income as income generated on lands both managed and purchased with Federal
     Assistance funds. We also note the barter crop leases specify that farmers may provide
     services in numerous plots on the wildlife management area in lieu of cash payments.
     The services provided directly relate to activities approved in the Federal Assistance land
     management grants. The services include leaving crops for wildlife, mowing, and
     maintaining food plots and buffers. In response to the Department’s belief that it should
     report costs associated with planting as an expense, we note these costs are to the farmer
     and not the Department. However, the Department may include as reported outlays on
     the financial status report the value of the lease payments foregone by the Department
     during the audit period due to the barter arrangements.

     While FWS management concurs with the recommendations, additional information is
     needed in the corrective action plan, including:

        • the specific actions taken or planned to resolve and implement the
          recommendations,

        • targeted completion dates,

        • titles of officials responsible for the actions taken or planned, and

        • verification that FWS officials reviewed and approved of actions taken or planned
          by the State.

C.   Inadequate Controls Over Personal Property

     The Department’s Finance Division maintains an inventory of equipment in its Asset
     Management System. Using an inventory listing generated from this system, we
     inspected equipment at six field offices, the headquarters office, and the Natural Resource
     Police Hunter Education Office in Annapolis. We inspected a sample of computer-
     related items, vehicles, firearms, and equipment. Some items could not be located. We
     also found improperly tagged items and inaccurate and incomplete data on the inventory
     listing.

     Under 50 C.F.R. § 80.19, the state must maintain current and complete property records
     in accordance with requirements in the Fish and Wildlife Service Manual. In addition,
     the Maryland Department of General Services Inventory Control Manual provides
     inventory standards for all State agencies. The standards require that: (1) data in the



                                              10
Department's capital equipment inventory system include, at a minimum, the agency
property identification number, description, and serial number (if any) (Section II.03 A);
(2) capital equipment items be marked with a property identification number and the
words "Property of the State of Maryland," using etching, indelible marking, or
permanent labels that cannot be removed (Section II E); and (3) sensitive items (those
highly subject to theft) be permanently labeled through means such as surface etching or
marking with indelible ink or paint (Appendix V).

We concluded that the inventory records were inaccurate and incomplete due to a lack of
communication between the locations or individuals physically controlling the property
and the Department's Property Management section.

Of 128 items valued at $378,578 that were selected for inspection, we could not find 6
items valued at $10,835. In addition, 50 items valued at $125,600 were not physically
tagged or engraved with the required State property ID number; and 9 items valued at
$16,176 were not included on the Department's inventory. Finally, for 69 items valued at
$154,995, data in the inventory listing was inaccurate or incomplete (missing property ID
number or serial number, incorrect description or serial number, or wrong location.).

Recommendations

We recommend that FWS ensure the Department:

1. accurately update the data in the Asset Management System to reflect the correct
   status and location of items and

2. assign property numbers to all items and tag all untagged items as required by the
   State guidelines.

Department Response

Department officials agreed that inventory errors occur because of a breakdown in
communication between the Department's Record Management section and personnel
with physical control of the inventory. Officials, however, believe they complied with
the State's inventory guidelines. They stated that they received permission in a memo
from the Department of General Services (DGS) to track their inventory in the Fixed
Asset System using serial numbers, hull identification numbers, or VIN numbers in place
of unique Department-assigned property numbers.

FWS Response

FWS officials agreed with the recommendations and stated that they would work with the
Department in developing a corrective action plan to address the recommendations.




                                        11
     OIG Comments

     In response to the Department, we note that we reviewed the memo from DGS during the
     audit. In the memo, DGS granted the Department permission to use serial numbers, hull
     identification numbers, or VIN numbers in place of unique property numbers in the Fixed
     Asset System. However, the DGS specified the alternative identification should be listed
     as the property number in the Fixed Asset System. We therefore only noted in the report
     those property items which do not have a unique identifier—either serial number,
     Department-assigned property number, or other alternative—in the Fixed Asset System’s
     property number field.

     While FWS management concurs with the recommendations, additional information is
     needed in the corrective action plan, including:

        • the specific actions taken or planned to resolve and implement the
          recommendations,

        • targeted completion dates,

        • titles of officials responsible for the actions taken or planned, and

        • verification that FWS reviewed and approved of actions taken or planned by the
          State.

D.   Inadequate Controls over Real Property

     The Department does not maintain an inventory listing of real property acquired with
     Federal Assistance funds or license revenues. Therefore, the Department's records are
     not adequate to assure control of real property acquired with Federal Assistance funds
     and license revenues.

     Title 50 C.F.R. § 80.19 requires that states maintain current and complete property
     records in accordance with requirements contained in the Fish and Wildlife Service
     Manual. Additionally, Section 80.18 requires states remain accountable for and control
     all assets, assuring they are used for the purpose for which they were acquired. The same
     accountability and control requirements are extended to assets acquired with license
     revenues (50 C.F.R. § 80.4).

     We found that the Department had not developed a list of real property by funding source
     because it did not consider it to be necessary. The Department used property records
     maintained by FWS rather than maintaining their own records. Federal regulations,
     however, require states to maintain their own property records. Failure to maintain a list
     of real property acquisitions acquired with Federal Assistance funds and license revenues
     inhibits the Department's ability to control real property.




                                              12
     Recommendations

     We recommend that FWS require the Department to establish:

     1. complete and accurate records for real property acquired with Federal Assistance
        funds and license revenues, ensuring reconciliation between the Department and FWS
        land records; and

     2. policies and procedures for maintaining real property records that include the source
        of funding.

     Department Response

     Department officials stated that for the past two years the Department has been compiling
     real property information, including the source of funds, into a central database. To
     validate and expedite this process, officials stated they will solicit FWS assistance in
     identifying lands purchased with Federal Assistance funds and license revenues.
     However, Department officials contend they are completing this inventory to expedite
     their decision making process and not to improve control over real property.

     FWS Response

     FWS management concurred with the recommendations and stated that they would work
     with the Department in developing a corrective action plan to address the
     recommendations.

     OIG Comments

     While FWS management concurs with the recommendations and the Department
     indicated action is being taken to address them, additional information is needed in the
     corrective action plan, including:

        • targeted completion dates,

        • titles of officials responsible for the actions taken or planned to resolve and
          implement the recommendations, and

        • verification that FWS reviewed and approved of actions taken or planned by the
          State.

E.   Interest on License Revenue Not Properly Deposited

     Interest generated from license fees deposited with the State Treasurer has not been
     transferred to the State Fisheries and State Wildlife Management and Protection Funds.
     These funds serve as the repository of license revenue to ensure the revenue is used only



                                              13
for the administration of the State’s fish and wildlife agency. The funds will be
transferred from the State Treasurer to the proper accounts only after the Department’s
Finance Division performs a reconciliation to determine the amount of interest to be
credited.

Title 50 C.F.R. § 80.4 prohibits the use of license revenues for any purpose other than the
administration of the state's fish and wildlife agency. License revenues include fees paid
to the state by hunters and fisherman for hunting and fishing privileges, as well as
interest, dividends, or other income earned on license revenues.

The Department's Chief Financial Analyst informed us that the interest earnings were
calculated based on the wrong balances and credited to the wrong fund because of a new
method of crediting interest that was initiated in SFY2003 and a Departmental
reorganization. He told us the problem was not discovered until the end of SFY2004. As
a result, a diversion of license revenues may have occurred. The Chief Financial Analyst
also intends to ensure reconciliations and corrective entries are made to properly credit
the interest.

Recommendation

We recommend that FWS determine whether diversion of license revenue has occurred
and require the Department to ensure the appropriate amount of interest is credited to the
State Fisheries and State Wildlife Management and Protection Funds.

Department Response

Department officials concurred with our recommendation. They stated the Comptroller
took measures to ensure the interest earned on license revenue is properly credited to the
State Fisheries and State Wildlife Management and Protection Plans. They further stated
the Department’s Chief Financial Analyst is independently calculating the interest due
the Department to ensure the proper amounts are credited to the State Fisheries and
Wildlife Management and Protection Plans.

FWS Response

FWS management agreed with the recommendation and stated that they would work with
the Department in developing a corrective action plan to address the recommendation.

OIG Comments

While FWS management concurs with the recommendation and the Department indicated
it is taking action to address them, additional information is needed in the corrective
action plan, including:

   • targeted completion dates,




                                        14
• titles of officials responsible for the specific actions taken or planned to resolve and
  implement the recommendation, and

• information verifying FWS reviewed and approved of actions taken or planned by
  the State.




                                      15
                                                                    Appendix 1
                                                                      Page 1 of 2

            MARYLAND DEPARTMENT OF NATURAL RESOURCES
                 FINANCIAL SUMMARY OF REVIEW COVERAGE
                    JULY 1, 2003, THROUGH JUNE 30, 2005

                                                Questioned Costs
                                    Unallowable Costs      Unsupported Costs
  Grant      Grant       Total                Federal                Federal
 Number     Amount      Outlays     Total      Share       Total      Share
F-41-D-22   $575,000    $560,823
F-41-D-23     230,000           0
F-41-D-24     263,000           0
F-41-D-25     128,500           0
F-42-R-16     750,584     603,972
F-42-R-17     781,817     655,790    $8,000   $6,000
F-45-R-16     125,806      59,256
F-45-R-17      93,818      69,345
F-45-R-18      93,407      95,212
F-47-E-14     425,151     342,624
F-47-E-15     405,622     331,812
F-47-E-16     313,926     324,087
F-48-R-13     935,108     939,648
F-48-R-14     935,108   1,020,481
F-48-R-15     935,108     795,873
F-50-R-13     231,331     183,610
F-50-R-14     239,187     200,774
F-53-D-10   1,064,957   1,348,560
F-53-D-11   1,391,713   1,416,763
F-53-D-12   1,381,890   1,398,720
F-54-R-9      925,065     782,297
F-54-R-10     568,217     568,217
F-55-D-6       90,000           0
F-55-D-7       90,000      12,170
F-57-R-5      322,907     372,126
F-57-R-6      543,697     342,600
F-58-R-4      128,853     103,356
F-60-R-1       97,812      49,591
F-60-R-2       93,334     101,520
F-61-R-1    1,111,706     998,726
W-61-R-15     972,000   1,090,614




                                      16
                                                                  Appendix 1
                                                                     Page 2 of 2

           MARYLAND DEPARTMENT OF NATURAL RESOURCES
                FINANCIAL SUMMARY OF REVIEW COVERAGE
                   JULY 1, 2003, THROUGH JUNE 30, 2005

                                                Questioned Costs
                                    Unallowable Costs    Unsupported Costs
  Grant     Grant        Total                Federal               Federal
 Number    Amount       Outlays     Total      Share      Total      Share
W-61-R-16     932,000   1,156,677
W-62-D-15   1,004,000   1,072,576
W-62-D-16   1,000,000   1,304,057
W-63-C-15      12,000      11,354
W-63-C-16      12,000      23,847
W-64-T-15     256,000     263,294
W-64-T-16     260,000     264,965
W-65-S-15     540,000     383,866   4,818     3,614      5,275        3,956
W-65-S-16     540,000     847,277   5,441     4,081     26,889       20,167
Totals    $20,800,624 $20,096,481 $18,259   $13,695    $32,164      $24,123




                                     17
                                                     Appendix 2


MARYLAND DEPARTMENT OF NATURAL RESOURCES
              SITES VISITED

                    Regional Offices
                        Western

                      Hatcheries
                    Albert M. Powell

              Inland Fisheries Work Center

                       Lewistown

             Marine Fisheries Work Center

                       Matapeake

              Wildlife Management Areas
                   Warrior Mountain
                      Indian Springs
                       Gwynbrook
                       Wellington
                       Deal Island

                       Other Sites
              Franklin Street Boating Access
        Neavitt-Balls Creek Landing Boating Access




                           18
                                                                                 Appendix 3

                            MARYLAND
              DEPARTMENT OF NATURAL RESOURCES
         STATUS OF AUDIT FINDINGS AND RECOMMENDATIONS

Recommendations                 Status                          Action Required
A.1.1, A.1.2, A.3.1, A.3.2,     FWS management concurs          Additional information is
B.1, B.2, C.1, C.2, D.1, D.2,   with the recommendations, but   needed in the corrective action
and E                           additional information is       plan, including the actions
                                needed as outlined in the       taken or planned to implement
                                “Actions required” column.      the recommendations, targeted
                                                                completion date(s), the title of
                                                                official(s) responsible for
                                                                implementation, and
                                                                verification that FWS officials
                                                                reviewed and approved of
                                                                actions taken or planned by
                                                                the State. We will refer
                                                                recommendations not resolved
                                                                and/or implemented at the end
                                                                of 90 days (after May 9, 2007)
                                                                to the Assistant Secretary for
                                                                Policy, Management and
                                                                Budget for resolution and/or
                                                                tracking of implementation.

A.2                             Resolved and Implemented.       No further action is required.




                                         19
